No,: 20-5068
SUPREMEVOURT OF THE UNITED STATES
IA (in
Petitioner
vs.
Barbara Kong Brown et al.
, Respondents
On Petition fi)r a Writ of Certiorari to
Ninetb -Circuit Court of United States
PETITION FOR THE REHEARING

Petitioner in pro per
Li Qin & Zhixam Sun
13437 liorablum Ave Apt #A
Hawthorne, CA 90250
Tel 310) 531-6426
Email:santotz123@yahoo.com.

RECEIVED.
NOV 1 8 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

PETITION FOR REHEARING
Petitioner Li Qin in pro per brings [Petition for Rehearing] to the court decision on
Oct 5, 2020: "The Court today entered the following order in the above-entitled case: The
petition for a writ of certiorari is denied " signed by Scott S. Harris, Clerk, pursuant to US
Supreme Court rule 44.1. Any petition for the rehearing of any judgment or decision of the
Court on merits shall be filed within 25 days after entry of the judgment or decision.
Reasons for Granting the Petition
The Court regularly deny a petition for a writ of certiorari per Rule 16. 1.
After considering the documents distributed under Rule 15, the Court will enter
an appropriate order. The order may be a summary disposition on the merits.
Unusually, I got the denial notice signed by the court clerk, as exactly
predicated by opposed counsel Stephen E. Norris, a former clerk of Justice Ruth
Bader Ginsburg who alleged he has powerful influence over this Court. He intimidated to
block my [Petition] before Justices can see it, if I refused to accept his offer to settle this case.
My [Petition] deem not be reviewed by Justices on distribution conference
scheduled on Sep 29, 2020 at all. My [Petition for Rehearing] shall be granted for
a due process. I was not notified with any deficiency in format or in filing
procedure, therefore my petition shall be reviewed by Justice on its merits.
Case No. 20-5068
Dec 18, 2014, without an informed consent, Defendant's 2 obstetricians,
performed a C-section and left an incision hernia on my stomach when they were
vigorously chitchatting of their family affair and exchanging their cuisine art,
while I was dying on the table by an overdose anesthesia performed by a nurse
instead of anesthetist. (Appendixes I)
Oct 24, 2014, Defendant's manager terminated my husband Sun's
employmont and my health insurance in retaliation to his notice of obstetrician's

Petition for Rehearing Case # 20-5068

Page 1 of 3

negligence and his request for FMLA leave to take care me during the hernia
repair surgery scheduled on Nov 3rd, 2014. Kaiser cancelled the surgery and
dumped me into Med-Cal. (Appendixes II)
On Dec 18, 2014, the malpractice case was presented to Arbitration.
June 1, 2015, I underwent an unsuccessful incision hernia repair surgery
at a local hospital, complicated by the chronic small bowel obstruction. I
currently can only ingest liquid or half liquid food and need continue medical
care for the acute attack from CSBO. (Appendixes III)
Defendant's counsels John S. Simonson, Matthew A. Bisbee and the
neutral arbitrator Barbara Kong Brown had exchange 989 conspiratorial
emails on Subject: Qin v. Kaiser. They were talking about how to dismiss my
case in very detail. Barbara coached those counsels to forge out some excuses for
her to dismiss my claim. (Appendixes IV)
Simonson forged out a fake DFA (demand for arbitration) in which I only
claim the misdiagnosis of the fracture of my left femur as a bursitis for 4 months,
instead of claim of the injury caused by the fracture in my genuine DFA. He
alleged that my claim of misdiagnosis was barred by the statute of limitation.
By concealment of my repair surgery record and medical record after Nov
2014, Simonson misled its expert witness, Dr. John Wachtel, make a biased
report: "Defendant did not cause any injury, damage or pain to plaintiff, and the
incision hernia would heal by itself."
Bisbee forged out an excuse that I had evaded one of his hundred
questions during the 7 hours torturing deposition, he enforced me admit Kaiser
had gotten an "informed consent" before C-section. I honestly answered his
questions more than 50 times that I never see it.
Bisbee forged out another excuse "absence of report of expert witness in my
claim". Even my expert witness Dr. David Priver proffered his report on Nov 13,
2015 and on Jan 31, 2016 he reprinted and represented his report plus his
confirmation that he would testify on the final hearing scheduled on Feb 2, 2016.
(Appendixes V) Disregard all fact and evidences presented, arbitrator Barbara
granted all their frauds and perjuries, dismissed my claim under color of law.

Petition for Rehearing Case # 20-5068

Page 2 of 3

Appeal on 6th Court of Appeal of California
Hundreds conspiratorial emails unearthed in investigation, but 3 Justices
made their judicial lies: "The record does contain several emails between Kaiser's
attorney and the arbitrator, but the messages predating the arbitrator's decision
relate only to scheduling various hearing."
"Even if true that: -- Kaiser didn't obtain her informed consent as required
by law before perming a surgical procedure, and that surgery caused serious
injuries to Qin to undergo a repair surgery. 'and her deposition was "torturing
and oppressive" —"But since an arbitration award is the production of a private
arrangement, not state action, arbitration proceeding do not implicate the right to
due process." Under undue influence, 3 Justices evaded their jurisdiction
rendered by California CCP 1286.2: Corruptive Arbitration
The Process on Federal Courts
I filed my complaint on Federal District Court and appealed on Ninth
Circuit Court pursuant to 42 U.S. Code 1983 & 1985, but the judges dismissed it
per Rooker—Feldman doctrine and indicated that only US supreme court have
jurisdiction over State Supreme Court.
This court is the last defense line to protect US judicial integrity. Even my
cases are not capital ones, but my fragile health condition is deteriorated by
multiple injuries day by day. I know all civil rights were inscribed in our
constitution, but I wish I can feel before I die.
The judgements of trial courts and the opinion of court of appeal of
California are not merely contrary to the facts, but also raise the constitutional
question which shall not be evaded: "nor shall any state deprive any person of
life, liberty, or property, without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws."
CONCLUSION
Petitioner Li Qin respectfully request that this court grant her [Petition
for Rehearing] and order full brief and argument on the merits of this case.
Respectfully submitted
Petitioner Li Qin in pro per

Petition for Rehearing Case # 20-5068

Oct 21, 2020.

Page 3 of 3

No.: 20-5068
2.

SUPREME COURT OF THE UNITED STATES
Li Qin Petitioner
vs.
Barbara Kong-Brown el al. Respondents

4
5

On Petition for a Writ of Certiorari to
the United States Court Of Appeals.for the Ninth Circuit

6

Table of Appendixes of Petition fOr Rehearing

7
8
9
10

11 Appendixes
Y2
MRI Report of Qin's Incision Hernia
11
Appendixes H
14
(1) Verification of Treatment VOT
15
(2.) Termination Letter
16
lAppendixes 111
Operation Record of n.cision Hernia Repair
18
19
20

21
22

ApPendixes lip
989 Conspiratorial Emails & 5 Sample Entails
Appendixes V
(1) Expert Witness Peclara
(2) Confirmation of-Planned Testimony. at the Arbitration Hearing

23

2.4
25
26
27
28
'kprendixes of [Petition for Rehearing

2
3
4
5
6
7
8

No.: 20-5068
SUPREME COURT OF THE UNITED STATES
Li Qin Petitioner
vs.
Barbara Kong-Brown et al. Respondents
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit

Appendixes of Petition for Rehearing

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

Appendix I
MRI Report of Qin's Incision Hernia

26
27
28
Appendixes of [Petition for Rehearing]

No.: 20-5068
SUPREME COURT OF THE UNITED STATES
Li Qin Petitioner
vs.
Barbara Kong-Brown et al. Respondents
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit

Appendixes of Petition for Rehearing

Appendix II
Verification of Treatment
Termination Letter

Appendixes of [Petition for Rehearing]

The Permanente Medical Group, Inc.
SURGERY CLINIC, 286
710 Lawrence Expy
Santa Clara CA 95051-5173
Dept: 408.851-2000
Main: 408-851-1000

September 25, 2014
Li Qin
660 Harvard Ave #43
Santa Clara CA 95051

lirwaa—ek,
To whom this may concern:

lkixqrk At4t-?v w'4-02,ittuzovi

_44-44:4

chAl4e.AA(4014,-uz-j

This is to certify that Li Qin is scheduled for surgery on 11/3/14, Four weeks i typic
necessary for post-op recovery. An official Verification of Treatment (VOT) will be
given when patient shows for surgery.

Sincerely,

MMY HE-MIN HW MD

83

DISCIPLINARY ACTION
KNSF-R PERMANENTE
Date: October 22, 2014
To:

Zhixun, (Samuel) Sun, EE1D: 00525415

From: Melanie Londono, Manager
Patricia McKenna, AMGA
Subject: Termination

This is your letter of termination from the Department of Cardiology at the Santa Clara Medical Center,
as an Echo Sonographer, this is a result of your inappropriate behavior and related failure to follow
Management instructions on Oct 1, 8 and 9, 2014, respectively. Management has previously
expressed concerns with regard to your unacceptable performance and a no call, no show absence.
You were issued independent Suspensions, respectively, for those issues as follows:
10/07/2018 Suspension for unacceptable job performance ;5s1,14,
09/27/2014 — Suspension for unauthorized no call no show absence

tI
a

1.0

On October 1, 2014, you attended a Meet and Greet with 13 other employees of the CV Service line.
You arrived late, but, along with your colleagues, were offered the opportunity to participate in an
exchange where department employees could share what you liked about being a Kaiser employee
and what you thought could make your day to day experience within your department more enjoyable.
You stated you liked working at Kaiser because they pay the most. You then proceeded to share
negative experiences you had with Hospital Nurses that coincidentally resulted in disciplinary action
against you. AMGA Pat McKenna immediately addressed you and advised you to please stop
speaking about this personal issue. She said these issues are confidential and should not be
discussed in this forum. I repeated the original questions, giving you the benefit of the doubt, but you
continued talking about other personal matters involving your negative interactions with Hospital
Nurses. Pat McKenna interjected two more times for you to stop, saying you could not discuss your
confidential issues in this forum. I finally said it was time to let the other employees leave and told you
to stay and talk one on one with me to discuss your issues. You left the area. You were placed on paid
Administrative Leave pending the results of investigation of this latest incident.
We met on October 7, 2014 with your Union Representatives present. The Union requested we allow a
department HBS translator, Julie Hsu, from the Cardiology department, to attend the meeting so they
were more assured you understood Management concerns and instructions. Julie attended and
provided translation of Management's concerns about your behaviors on October 1, 2014. During the
interview, you acknowledged understanding the questions, but continued to express your
dissatisfaction of the Nurses questioning your rough handling of patients and other work habits (use of
gel in the patient's room). On occasion.you even interrupted Ms. Hsu, responding to Management and
the Union in English. You maintained a confrontational, contentious demeanor throughout the
interview. You were advised you would remain on Administrative Leave, pending investigation. You
were advised you were not to be in the work area during this time of leave. The only reasons for you to
be in the facility, until authorized by .Management, was for medical appointments for you or a family
member or, like any other Kaiser Member, for business in the Pharmacy. You were reminded that you
were expected to be available to meet during your normal scheduled hours. You acknowledged

CONFIDENTIAL

DISCIPLINARY ACTION
teMIWNISORPRIMTM-",
, — -

understanding. You then asked if you could go to LA. Management repeated the expectat
ion to be
available to meet during your normal scheduled hours while you were on paid leave. Your
Union
representative advised you to stay in town and be available until the investigation was conclude
d.
On 10/8/2014, it was brought to management's attention that you made a visit to Department
348 and
during this visit you turned in a VOT for being the caretaker of your wife beginning 11/3/201
4. It was
also reported to me that you sequestered a Physician to discuss your personnel matters.
On 10/9/2014, you again visited the department meeting with Julie Hsu, the HBS translator
and
Charlotte Anderson.
Sam, you actions were defiant of instructions given to you by Management with regard to your
status
on paid administrative leave pending results of the investigation.
Sam, your behaviors on 10/1/2014 were inappropriate, unprofessional and unacceptable.
You also did
not follow the instructions of Management, which represents insubordinate behavior. In addition,
while
on paid Administrative Leave, you again did not comply with instructions of Manage
ment. Your
continued display of unprofessional and unacceptable behavior can no longer be tolerated
. Based
upon your position in the progressive disciplinary process and your inappropriate and unaccep
table
behaviors, as indicated above, your employment with the Permanente Medical Group
is being
terminated effective immediately. You are ineligible for Rehire with the Permanente Medical
Group
based on your unsatisfactory job performance.

Signing this document only indicates receipt and not agreement.
4C

1
,

-

#'71
-rg-

Melanie Londono, Manger

Date

e SeCi
f; o e
Zhixtirl (Sgmuel) Sun, EEID: 00525415

Date

Union Representative (If Applicable)

D.at

Cc:

Ron Rich, HRC
HRSC (877-477-2329 Fax)
Union

CONFIDENT/AL

No.: 20-5068
SUPREME COURT OF THE UNITED STATES
Li Qin Petitioner
vs.
Barbara Kong-Brown et al. Respondents
On. Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit

Appendixes of Petition for Rehearing

Appendix III
Operation Report of Incision Hernia Repair

Appendixes of [Petition for Rehearing]

No.: 20-5068
SUPREME COURT OF THE UNITED STATES
Li Qin Petitioner
vs.
Barbara Kong-Brown et al. Respondents
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit

Appendixes of Petition for Rehearing

Appendixes IV
989 Conspiratorial Emails and 5 Sample Emails

Appendixes of [Petition for Rehearing]

No.: 20-5068
SUPREME COURT OF THE UNITED STATES
Li Qin Petitioner
vs.
Barbara Kong-Brown et al. Respondents
On Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit
Appendixes of Petition for Rehearing

Appendixes V
Expert Witness Declaration
Confirmation of Planned Testimony at the Arbitration Hearing

Appendixes of [Petition for Rehearing]

in the Matter of the Arbitration of Li Qin, Claimant v Kaiser
Foundation Hospitals, et al, Respondent
Arbitration # 13284
Expert Witness Declaration
Report of David M. Priver, MD, FACOG
Date November 3, 2015
I am an Obstetrician/Gynecologist retained by the claimant to review
her medical records for the
purpose of determining whether or not she was injured by the respon
dents as a result of the
provision of medical care which did not meet appropriate standa
rds.
I hereby certify that I am qualified to provide such an opinion by
virtue of having the following
qualifications:
Certification and re-certification by the American Board of Obste
trics & Gynecology
Approximately 45 years of experience in providing care to patien
ts in this field in the settings
of an office practice and both hospitals and clinics
More than 15 years of experience serving as an expert medical
witness.
Having reviewed more than 180 cases in which medical malpractice
was alleged to have
occurred.
Having given testimony involving such cases at more than 35 depos
itions.
Having given testimony involving such cases in more than 10 courtr
oom trials.
My opinion is based upon review of medical records of Li Qin from
the Kaiser Permanente
Medical Center of Santa Clara, California as regards an admission
date of December 18, 2013.

Case summary
The claimant was a 50 y/o G5 P2 Ab2 Asian female who underwent
a repeat Cesarian section
at Kaiser Permanente Medical Center of Santa Clara, California
on December 18, 2013. The
procedure was electively scheduled at approximately 38 weeks
gestation because she had had
two prior Cesarian deliveries, one of which occurred at 24 weeks
gestation and was felt to have
likely involved a classical uterine incision which is known to be at
substantial risk of rupture
during labor. The records of this earlier procedure were apparently
not available to her current
caregivers. A healthy term male infant was delivered.
On the day following the birth of the baby, the claimant noticed a
sudden incisional pain
accompanied by a "bulging" at the upper end of the vertical abdom
inal incision. This became
progressively more uncomfortable over subsequent weeks. A consu
ltation with a general
surgeon was performed on February 24, 2014. incorporating a CT
scan, it was concluded that
an incarcerated hernia existed which contained omental tissue.
The patient was advised to keep
the matter under observation. She did so for several months. She
reported at a visit on
September 25, 2014 that the area remained painful. She was sched
uled for surgical repair on
10/16, but needed to delay this procedure so as to have family memb
ers available to assist her
during recovery. She was rescheduled for November 3, 2014, but
the case could not go forward
as her medical insurance had been terminated.

Her care was subsequently transferred to General Surgeon Steven Bae who performed a
successful incisional hernia repair on June 1, 2015.

Analysis of claimant's allegation
The fact that an incisional hernia appeared essentially immediately following surgery leads to
the conclusion that, more likely than not, the fascia! incision was not properly repaired. It is
reasonable to assume that either the closure did not incorporate the upper extent of the incision
or that the suturing was not accompanied by adequate ligation of tissue due to faulty knot tying.
Such a scenario constitutes substandard surgical care. For this reason, it is my carefully
considered opinion that the claimant's allegation of substandard care resulting in significant
injury is meritorious.
I hereby emphasize that this opinion is based upon information which has been provided to me
by the claimant and her husband. I reserve the right to modify this opinion in the event that
additional information is brought to my attention.

I further submit that I have no personal acquaintance with the claimant, her husband, or any of
the providers who provided care to this patient. I, therefore, deny any and all potential conflicts
of interest in this process.
I declare under penalty of perjury under the laws of the State of California that the foregoing is
true and correct.
Respectfully submitted,

David M. Priver, MD

Confirmation of Planned Testimony at the Arbitration Hea
ring of U Qin v
Kaiser Foundation
I, David M. Priver, MD, FACOG, hereby confirm that I am
willing and
prepared to provide expert witness testimony at the Arbi
tration Hearing to
be scheduled and conducted on the matter of patient
U Qin v Kaiser
Hospitals and its physician employees.
Date:

I : 16"

Signature:

/4

)/1

